No. 19-431
IN THE

THE LITTLE SISTERS OF THE POOR
SAINTS PETER AND PAUL HOME,
Petitioner,

v.

THE COMMONWEALTH OF PENNSYLVANIA AND
THE STATE OF NEW JERSEY, et al.,
Respondents.
ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.l(h), I, Matthew T. Martens, a member of
the bar of this Court, certify that the accompanying Brief for Amicus Curiae Christian
Legal Society in support of Petitioner contains 5,672 words, excluding the parts of the
document that are exempted by Supreme Court Rule 33.l(d).
Executed on November 1, 2019.

��-1!-� r. M�/157
MATTHEW T. MARTENS
WILMER CUTLER PICKERING
HALE AND DORR LLP
1875 Pennsylvania Ave., NW
Washington, D.C. 20006
(202) 663-6000
matthew.martens@wilmerhale.com

